<html>
<title> - AN OVERVIEW OF THE NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION AND THE ENVIRONMENTAL PROTECTION AGENCY BUDGETS FOR FISCAL YEAR 2013</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  AN OVERVIEW OF THE NATIONAL OCEANIC
                   AND ATMOSPHERIC ADMINISTRATION AND
                  THE ENVIRONMENTAL PROTECTION AGENCY
                      BUDGETS FOR FISCAL YEAR 2013

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                         TUESDAY, MARCH 6, 2012

                               __________

                           Serial No. 112-67

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
73-125                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               MARCIA L. FUDGE, Ohio
RANDY NEUGEBAUER, Texas              BEN R. LUJAN, New Mexico
MICHAEL T. McCAUL, Texas             PAUL D. TONKO, New York
PAUL C. BROUN, Georgia               JERRY McNERNEY, California
SANDY ADAMS, Florida                 JOHN P. SARBANES, Maryland
BENJAMIN QUAYLE, Arizona             TERRI A. SEWELL, Alabama
CHARLES J. ``CHUCK'' FLEISCHMANN,    FREDERICA S. WILSON, Florida
    Tennessee                        HANSEN CLARKE, Michigan
E. SCOTT RIGELL, Virginia            SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY


                            C O N T E N T S

                         Tuesday, March 6, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Andy Harris, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................    12
    Written Statement............................................    13

Statement by Representative Brad Miller, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    16

                               Witnesses:

Dr. Jane Lubchenco, Adminstrator, National Oceanic and 
  Atmospheric Administration
    Oral Statement...............................................    17
    Written Statement............................................    19

Discussion.......................................................    27

Mr. Lek Kadeli, Acting Assistant Administrator, Office of 
  Research and Development (ORD)
    Oral Statement...............................................    36
    Written Statement............................................    39

Discussion.......................................................    44

             Appendix 1: Answers to Post-Hearing Questions

Dr. Jane Lubchenco, Adminstrator, National Oceanic and 
  Atmospheric Administration.....................................    53

Mr. Lek Kadeli, Acting Assistant Administrator, Office of 
  Research and Development (ORD).................................    79

             Appendix 2: Additional Material for the Record

Mercury News Editorial: ``Don't Reduce Tsunami Alerts''..........   108


                  AN OVERVIEW OF THE NATIONAL OCEANIC
                   AND ATMOSPHERIC ADMINISTRATION AND
              THE ENVIRONMENTAL PROTECTION AGENCY BUDGETS
                          FOR FISCAL YEAR 2013

                              ----------                              


                         TUESDAY, MARCH 6, 2012

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:27 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Andy 
Harris [Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T3125.004

[GRAPHIC] [TIFF OMITTED] T3125.005

[GRAPHIC] [TIFF OMITTED] T3125.006

[GRAPHIC] [TIFF OMITTED] T3125.007

[GRAPHIC] [TIFF OMITTED] T3125.008

[GRAPHIC] [TIFF OMITTED] T3125.009

    Chairman Harris. The Subcommittee on Energy and Environment 
will come to order. Good afternoon. Welcome to today's hearing 
entitled ``An Overview of the National Oceanic and Atmospheric 
Administration and the Environmental Protection Agency Budgets 
for Fiscal Year 2013.'' In front of you are the packets 
containing the written testimony, biographies, and Truth in 
Testimony Disclosures for today's witness panel. I now 
recognize myself for five minutes for an opening statement.
    I want to welcome everyone to this afternoon's hearing. 
Unfortunately, I have to begin by expressing a matter of 
disappointment. The President's budget request for the Federal 
Government was released more than three weeks ago, but NOAA has 
still not delivered its budget justification documents to 
Congress. This Subcommittee oversees NOAA's $5 billion budget 
and has a responsibility to review and react to the details of 
the President's budget.
    In the absence of budget details, we are simply unable to 
provide a complete assessment of the request. Last week, the 
Appropriations Subcommittee on Commerce, Justice, and Science 
had to cancel its hearing as a result of that delay. We have 
chosen to go forward with this hearing due to scheduling 
constraints, but I must impress upon you, Administrator 
Lubchenco, that this abdication of such a simple responsibility 
influences the perception on the Hill that the Administration 
is not being a good steward of taxpayer money.
    One of the major themes of the President's fiscal year 2013 
budget request has been the need to make tough choices. Only in 
Washington, as we face an unprecedented fiscal train wreck and 
continue to be forced to borrow 40 cents on the dollar, can a 
requested budget increase of 3.1 percent for NOAA and 1.4 
percent for EPA be characterized as making tough choices. Even 
within these requested increases, the Administration is 
prioritizing its political environmental agendas ahead of the 
core scientific needs of the Nation.
    For NOAA, satellites now comprise 40 percent of the total 
budget request. This is up from 31 percent just two years ago. 
While the Committee applauds the successful launch of the Suomi 
NPP satellite, we continue to have grave concerns with the 
current trajectory of the Joint Polar Satellite System program. 
Even NOAA's own optimistic schedule of a launch of the next 
polar satellite in the early part of 2018--and I say optimistic 
since it took 18 years to get the first satellite off the 
ground--still leaves us with an almost certain gap in data 
availability.
    The limited budget information provided to the Committee 
thus far provides no indication that NOAA has a plan to develop 
a solution that ensures continual, high-quality data for 
weather forecasting. The extreme weather events just last week 
and this week further highlight the importance of this data to 
saving lives and property. Further, the delays and cost over-
runs so systemic to NOAA's satellite programs is forcing 
significant reductions in the budget for important activities 
such as oceans, fisheries, and weather.
    Another big winner in NOAA's budget request is climate 
research. In the Office of Oceanic and Atmospheric Research 
alone, more than $212 million is allotted for climate research, 
a 15 percent increase above last year, whereas less than $70 
million is set aside for research in weather and air chemistry. 
Taken together with the cuts to the National Weather Service, 
the budget indicates the Administration has prioritized 
understanding climate conditions decades from now over 
predicting weather conditions tomorrow. Given the potential for 
innovations in weather forecasting to greatly aid the economy 
and save lives and property, the continued prioritization of 
climate over weather is highly disappointing and should be 
rejected by Congress.
    The Administration's budget request for science and 
technology activities at EPA is similarly concerning. In a 
series of hearings on EPA's research activities, this 
Subcommittee examined in detail the line between politics and 
science at the Agency. While Administrator Jackson has stated 
that ``Science is the backbone of everything we do at the 
EPA,'' it is a very weak backbone struggling to support the 
enormous weight of the Administration's regulatory ambitions. 
The Office of Research and Development represents less than 
seven percent of the $8.3 billion request for EPA. Instead of 
conducting fundamental environmental research, the Agency 
sacrifices sober analysis in favor of the outcome-driven 
science demanded by the President's anti-energy agenda. All too 
often, what passes for peer review of Agency science is a 
rubber stamp by supposedly independent scientific advisors who 
also happen to be recipients of EPA's largesse.
    The President's focus on climate change and the ongoing 
efforts to find a regulatory angle to restrict the shale gas 
revolution comes at the expense of worthwhile R&D. EPA is 
requesting substantial increases for these two areas, including 
more than $240 million for duplicative climate change 
activities and $14 million for work on hydraulic fracturing of 
questionable value.
    Following the sloppy and highly questionable actions of the 
Agency in investigating water concerns in Pavillion, Wyoming, 
and Dimock, Pennsylvania, and the inability to follow its own 
peer review guidelines in the endangerment finding on 
greenhouse gases, I have little confidence in EPA's ability to 
conduct trusted, quality science in this area, and as such 
cannot support the significant expansion of hydraulic 
fracturing research called for in this request.
    I want to thank the witnesses for appearing before the 
Subcommittee, and I look forward to a constructive discussion.
    [The prepared statement of Mr. Harris follows:]

              Prepared Statement of Chairman Andy Harris,
                Subcommittee on Energy and Environment,
         U.S. House Committee on Science, Space, and Technology

    I want to welcome everyone to this afternoon's hearing to examine 
the Administration's fiscal year 2013 budgets for the National Oceanic 
and Atmospheric Administration and the Environmental Protection Agency.
    Unfortunately, I have to begin by expressing my extreme 
disappointment. The President's budget request for the Federal 
Government was released more than three weeks ago. However, NOAA has 
incredibly still not delivered its budget justification documents to 
Congress. This Subcommittee oversees NOAA's five billion dollar budget 
and has a responsibility to review and react to the details of the 
President's request. In the absence of budget details, we are simply 
unable to provide a complete assessment of the request. Last week, the 
Appropriations Subcommittee on Commerce, Justice, and Science had to 
cancel its hearing as a result of NOAA's delays. We have chosen to go 
forward with this hearing due to scheduling constraints, but I must 
impress upon you, Administrator Lubchenco, that this abdication of such 
a simple responsibility influences the perception on the Hill that the 
Administration is not being a good steward of taxpayer money.
    One of the major themes of the President's FY 2013 budget request 
has been the need to make tough choices. Only in Washington, as we face 
an unprecedented fiscal train wreck and continue to be forced to borrow 
40 cents on the dollar, can a requested budget increase of 3.1 percent 
for NOAA and 1.4 percent for EPA be characterized as making ``tough 
choices.'' Even within these requested increases, the Administration is 
prioritizing its political environmental agendas ahead of the core 
scientific needs of the Nation.
    For NOAA, satellites now comprise 40 percent of the total budget 
request. This is up from 31 percent two years ago. While the Committee 
applauds the successful launch of the Suomi NPP satellite, we continue 
to have grave concerns with the current trajectory of the Joint Polar 
Satellite System program. Even NOAA's own optimistic schedule of a 
launch of the next polar satellite in the early part of 2018--and I say 
optimistic since it took 18 years to get the first satellite off the 
ground--still leaves us with a ``almost certain'' gap in data 
availability. The limited budget information provided to the Committee 
thus far provides no indication that NOAA has a plan to develop a 
solution that ensures continual, high-quality data for weather 
forecasting. The extreme weather events just last week further 
highlight the importance of this data to saving lives and property. 
Further, the delays and cost overruns so systemic to NOAA's satellite 
programs are forcing significant reductions in the budget for important 
activities such as oceans, fisheries, and weather.
    Another big winner in NOAA's budget request is climate research. In 
the Office of Oceanic and Atmospheric Research alone, more than $212.0 
million is allotted for climate research--a 15 percent increase above 
last year--whereas less than $70 million is set aside for research in 
weather and air chemistry. Taken together with the cuts to the National 
Weather Service, the budget indicates the Administration has 
prioritized understanding climate conditions decades from now over 
predicting weather conditions tomorrow. Given the potential for 
innovations in weather forecasting to greatly aid the economy and save 
lives and property, the continued prioritization of climate over 
weather is highly disappointing and should be rejected by Congress.
    The Administration's budget request for science and technology 
activities at EPA is similarly concerning. In a series of hearings on 
EPA's research activities, this Subcommittee examined in detail the 
line between politics and science at the Agency. While Administrator 
Jackson has stated that ``Science is the backbone of everything we do 
at the EPA,'' it is a very weak backbone struggling to support the 
enormous weight of the Administration's regulatory ambitions. The 
Office of Research and Development represents less than seven percent 
of the $8.3 billion request for EPA. Instead of conducting fundamental 
environmental research, the Agency sacrifices sober analysis in favor 
of the outcome-driven science demanded by the President's anti-energy 
agenda. All too often, what passes for peer review of Agency science is 
a rubber stamp by supposedly independent scientific advisors, who also 
happen to be recipients of EPA's largesse.
    The President's focus on climate change and the ongoing effort to 
find a regulatory angle to restrict the shale gas revolution comes at 
the expense of worthwhile R&D. EPA is requesting substantial increases 
for these two areas, including more than $240 million for duplicative 
climate change activities and $14 million for work on hydraulic 
fracturing of questionable value. Following the sloppy and highly 
questionable actions of the Agency in investigating water concerns in 
Pavillion, Wyoming, and Dimock, Pennsylvania, and the inability to 
follow its own peer review guidelines in the Endangerment Finding on 
greenhouse gases, I have little confidence in EPA's ability to conduct 
trusted, quality science in this area, and as such cannot support the 
significant expansion of hydraulic fracturing research called for in 
this request.
    I want to thank the witnesses for appearing before the 
Subcommittee, and I look forward to a constructive discussion.

    Chairman Harris. The Chair now recognizes Mr. Miller for 
five minutes for an opening statement.
    Mr. Miller. Thank you, Chairman Harris. I also want to 
welcome the witnesses today, Dr. Lubchenco from NOAA, and 
later, Mr. Kadeli from the EPA. I want to thank both of you for 
being here today.
    We are likely to spend much of this hearing discussing two 
subjects these agencies are now tackling, if subcommittee and 
committee hearings in this Congress are any indication at 
least, first, understanding the environmental and human health 
effects of a massive expansion in oil and gas drilling, 
principally fracking; and, second, understanding the nature of 
our changing climate and what effects it will have.
    Those are critical research areas that EPA and NOAA are 
uniquely qualified to undertake. But a discussion limited to 
hydraulic fracturing and climate change ignores the broad scope 
of the scientific activities these agencies pursue and the 
critical role they play in our lives every day.
    From forecasting the weather to protecting public health by 
ensuring cleaner air and water, those roles are too easily 
disregarded and unfairly demonized at times in the fog of 
partisan politics. We must not lose sight of the contribution 
that decades of science and technology research have provided 
to our economy and public health.
    While today we will see areas of agreement and disagreement 
on the appropriate resources and directions for NOAA and EPA, I 
think that we should all agree that good policy begins with 
good science, and that good science is not free.
    We must recognize the value of those programs and work 
together to protect every American's right to cleaner air and 
water and a healthier environment.
    I understand the need to set priorities in times of fiscal 
restraint as we appear now to be in and commend the 
Administration for doing that, but there are aspects of each of 
the budgets that concern me. Despite the challenging economic 
times, it is unwise to sacrifice the services that the public 
relies on such as weather forecasting and our warning 
capabilities, nor should we undermine America's future by 
failing to invest in the next-generation workforce of 
scientists. We can be fiscally responsible while still making 
the necessary investments to keep our country and our 
environment healthy and the American economy competitive.
    It is hard at times to avoid cliches in politics, but I 
try. There is a phrase that is widely used because it is 
frequently apt. We are eating our seed corn. That is my great 
concern about our budget for research.
    Dr. Lubchenco and Mr. Kadeli, as you testify today, please 
explain how the proposed cuts and increases will affect your 
Agency's ability to protect the health and well-being of our 
citizens and communities, and how the President's request will 
move our Nation's science enterprise in the right direction. I 
look forward to working with you both, with all of you, in the 
months ahead.
    I will support the agencies on a lot of things, but I think 
you should get your budget justification in, too. Second, I 
understand the Department of Commerce is now resisting 
documents I am not sure the Committee still wants on the basis 
that they are pre-decisional. I will not support agencies in 
refusing to release documents based upon exceptions to the 
requirements of FOIA. The Congress request, it is not pursuant 
to FOIA. The courts do recognize a limited pre-decisional 
immunity from production, but it is very limited. If there is 
any reason for producing it, the Administration should produce 
it. And there is almost always a reason when Congress asks that 
a document that outlines how the decision--made the decision 
they made--is a sufficient basis for Congress to ask for it. So 
I also urge the Administration, EPA, NOAA, Commerce to release 
documents without regard to whether they are pre-decisional or 
post-decisional.
    And with that, Mr. Chairman, I do yield back.
    [The prepared statement of Mr. Miller follows:]

            Prepared Statement of Ranking Member Brad Miller

    Thank you, Chairman Harris. I also wish to welcome the witnesses, 
Dr. Lubchenco from NOAA, and later, Mr. Kadeli here from the EPA. Thank 
you both for being here today.
    We are likely to spend much of this hearing discussing two subjects 
these agencies are now tackling. First, understanding the environmental 
and human health effects of a massive expansion in oil and gas 
drilling; and second, understanding the nature of our changing climate 
and what effects it will have.
    These are critical research areas that EPA and NOAA are uniquely 
qualified to undertake. However, a discussion limited to hydraulic 
fracturing and climate change ignores the broad scope of the scientific 
activities these agencies pursue and the critical role they play in our 
lives every day.
    From forecasting the weather to protecting public health by 
ensuring cleaner air and water, these roles are too easily disregarded, 
and unfairly demonized, in the fog of partisan politics. We must not 
lose sight of the contribution that decades of science and technology 
research have provided to our economy and public health.
    While today we will see areas of agreement and disagreement on the 
appropriate resources and directions for NOAA and EPA, I think that we 
should all agreee that good policy begins with good science, and that 
good science is not free.
    We must recognize the value of these programs and work together to 
protect every American's right to cleaner air and water and a healthier 
environment.
    I understand the need to set priorities in times of fiscal 
restraint and commend the Administration for doing so; there are 
aspects of each budget that concern me.
    Despite the challenging ecomonic times, it is unwise to sacrifice 
serivces that the public relies on, such as weather forecasting and 
warning capabilities. Nor should we undermine America's future by 
failing to invest in the next-generation workforce of scientists. We 
can be fiscally responsible while still making the necessary 
investments to keep our country and environment healither and the 
American economy competitive.
    It is hard to avoid cliches in politics, but I try. There is a 
phrase that is widely used because it is frequently apt: we are eating 
our seed corn. That is my great concern about our budget for research.
    Dr. Lubchenco and Mr. Kadeli, as you testify today, please explain 
how the proposed cuts and increases will affect your agencies' ability 
to protect the health and well-being of our citizens and communities, 
and how the President's request will move our Nation's science 
enterprise in the right direction.
    I look forward to working with you all in the months ahead. I yield 
back.

    Chairman Harris. Thank you very much, Mr. Miller. If there 
are Members who wish to submit additional opening statements, 
your statements will be added to the record at this point.
    At this time I would like to introduce our witness for the 
first panel. The Honorable Jane Lubchenco is the Administrator 
of the National Oceanic and Atmospheric Administration at the 
Department of Commerce. She is a marine ecologist and 
environment scientist by training with expertise in oceans, 
climate change and interactions between the environment and 
human well-being. She received her M.S. in zoology from the 
University of Washington and her Ph.D. in ecology from Harvard 
University.
    Thank you for appearing before the Subcommittee today. As 
you should know, spoken testimony is limited to five minutes, 
after which the Members of the Committee will have five minutes 
each to ask questions, and I now recognize you as our witness 
for the panel, Dr. Lubchenco.

        STATEMENT OF DR. JANE LUBCHENCO, ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Dr. Lubchenco. Chairman Harris, Ranking Member Miller, 
Members of the Committee, thank you for your leadership and 
your continued support of NOAA. I would like to start by 
extending NOAA's condolences to the families who lost loved 
ones in last week's tornados. Our local forecasters in the 
affected communities know the pain and the long road to 
recovery these destructive storms create. They also know the 
resilience of these communities.
    As home of the National Weather Service, NOAA is proud to 
be the Nation's first line of preparedness against severe 
weather. The March 2 outbreak was classified as a major 
outbreak. 2012 now ranks in the top five years for the number 
of tornados from January 1 through March 2 since detailed 
records began in 1950.
    These events highlight the importance of everyone being 
ready for severe weather. That is why NOAA is making a Weather-
Ready Nation a top priority. Last week our forecasters were 
able to give communities three days to prepare for Friday's 
storms, and as tornados were bearing down, lifesaving warnings 
were issued an average of 16 minutes prior to each tornado 
striking. Our towns will rebuild, and NOAA's National Weather 
Service will continue to deliver the lifesaving services our 
Nation relies upon.
    I am honored to be here today to discuss the President's 
fiscal year 2013 budget request. Just as families and 
businesses have made tough choices with tighter budgets, NOAA 
has prioritized our activities. We have proposed targeted 
investments while looking for efficiencies in our operations 
and in some cases, terminating or severely reducing activities. 
We have put forward a budget that reflects our dedication to 
providing some of the most critical lifesaving jobs and job-
supporting services that America's businesses, individuals and 
communities rely upon.
    We sincerely apologize for the delay in sending NOAA 
Congressional justification to Congress. Staff producing the CJ 
are working hard to complete the product as quickly as 
possible. As you know, the majority of the CJ lays out the 
justification for funding changes in the base. The major reason 
for the delay was that the fiscal year 2012 spend plan was not 
finalized until a few days ago, which kept the base levels of 
many programs in flux. Furthermore, adjustments that were made 
as the fiscal year 2012 spend plan was being finalized also led 
to late changes in the fiscal year 2013 funding levels. The 
result was uncertainty surrounding many of the numbers, 
affecting a large portion of the CJ until very recently. We 
will deliver the NOAA CJ to you by March 14. We are committing 
to reviewing the process for the CJs to ensure timely delivery 
in the future. In the meantime, we hope the budget in brief 
that was available provided some critical information, and we 
are happy to provide more briefings now that more information 
is available.
    Turning to the fiscal year 2013 request, our request which 
totals $5.1 billion is an increase of $153 million, 3.1 percent 
above the fiscal year 2012. To construct this budget, we sought 
administrative savings and made very tough choices to enable 
our top priorities. NOAA anticipates reaching our fiscal year 
2012 target of $68 million in administrative savings. An 
additional $16 million is targeted for 2013. While we take 
significant steps to help reduce government spending, key 
investments are necessary to meet the growing demand for NOAA's 
science and services.
    One of the greatest challenges that NOAA faces is the 
continuity of our satellite operations. We appreciate the 
broad, bipartisan Congressional support these programs received 
last year. Sustained funding for these satellites is important. 
The JPSS, the Joint Polar Satellite System, and the 
Geostationary Operational Environmental Satellite-R Series 
programs are two of our highest priorities. Together they will 
inform what we need to keep people safe. We have done 
everything possible to contain costs in these satellite 
programs. Funding is critical to keep the programs on track and 
minimize the duration of the expected gap between the recently 
launched Suomni NPP satellite and JPSS. Without full funding, 
the risk that there would be a more significant gap increases 
greatly.
    2011 rewrote the record book on extreme weather and 
provided a sobering reminder of our vulnerability. In response, 
the National Weather Service launched an initiative called 
Weather-Ready Nation. The 2013 budget requests $972 million to 
produce and deliver forecasts and services and improve the 
economic value of weather, water, and climate information.
    Our coastal communities are major contributors to the 
economy, and our budget supports those in numerous ways. 
Vibrant coastal communities depend on healthy oceans and 
thriving maritime commerce. NOAA's request includes $478 
million for the National Ocean Service.
    In conclusion, I thank you for the opportunity to testify 
before you today, and I look forward to your questions today as 
well as continuing discussions as you make decisions on this 
very important budget. Thank you very much.
    [The prepared statement of Dr. Lubchenco follows:]

        Prepared Statement of Dr. Jane Lubchenco, Administrator,
            National Oceanic and Atmospheric Administration

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T3125.011

[GRAPHIC] [TIFF OMITTED] T3125.012

[GRAPHIC] [TIFF OMITTED] T3125.013

[GRAPHIC] [TIFF OMITTED] T3125.014

[GRAPHIC] [TIFF OMITTED] T3125.015

[GRAPHIC] [TIFF OMITTED] T3125.016

[GRAPHIC] [TIFF OMITTED] T3125.017

    Chairman Harris. Thank you, and I want to thank you for 
your testimony. The round of questionings will begin, and I 
will recognize myself for five minutes to begin that.
    Doctor, your testimony stated that despite the substantial 
increase in funding for satellites in the budget request that 
we are almost certain that a gap in polar observational 
satellite data will occur. I understand that the GAO and the 
National Academies have actually have even been a little more 
pessimistic about the length of that gap.
    Setting aside any questions about, you know, who is to 
blame for it, what is NOAA doing to explore alternative means 
of getting that information? Is there another plan to get that 
information in the gap?
    Dr. Lubchenco. Mr. Chairman, we don't believe there are any 
viable alternative options at this point, which is why we are 
very aggressively pursuing staying on track and on the budget 
that is projected. As you know, when I came into this position, 
there had been a considerable history of budget cost overruns 
and delays. We made a commitment to turn that around, have 
restructured this new program, JPSS, and I believe we are on 
track as long as we obtain the funding that we need this year 
and next year. And I believe that the success of the programs 
to date are bearing that out.
    Chairman Harris. Has NOAA considered conducting an 
observing system simulation experiment in order to inform the 
development of future operating systems?
    Dr. Lubchenco. Mr. Chairman, I am not sure exactly what you 
are asking.
    Chairman Harris. OSSE? We will submit it in writing, and 
you can talk to staff about it then.
    Dr. Lubchenco. Okay.
    Chairman Harris. One of the few reductions in your request 
is to discontinue the National Air Quality Forecasting 
Capability, which, of course, forecasts ozone and particulate 
matter levels, and of course, that capability allows EPA and 
local agencies to issue their air quality health alerts for the 
public.
    Now, the National Weather Service states that this 
discontinuation was to ``fund higher priority items.'' But the 
decision seems at odds with what the EPA Administrator has 
said. Administrator Jackson last year said, ``We are actually 
at a point in many areas of this country where, on a hot summer 
day, the best advice we can give you is don't go outside. Don't 
breathe the air. It might kill you.'' In September, Ms. Jackson 
stated that, ``If we could reduce particulate matter to healthy 
levels, it would have the same impact as finding a cure for 
cancer.'' Obviously it seems like EPA thinks this might be 
important information. How can you explain the disparity 
between NOAA and EPA and the priority of developing the ozone 
and particular matter level warnings?
    Dr. Lubchenco. Mr. Chairman, I don't think there is any 
disparity in terms of the importance of measuring particulates 
and ozone. As we looked at our budget and made decisions, we 
really focused on areas that were core to our particular 
mission and areas where we had the greatest immediate 
responsibility to the citizens of this nation. The ozone and 
particulate programs have been relatively small and are less 
core to our immediate mission than are many of our other 
programs.
    Chairman Harris. Well, let me move onto that because, you 
know, a lot of Americans, I think, would say, you know, 
forecasting the weather, the National Weather Service is 
important, but the budget actually, a budget that increases by 
3.1 percent, actually has a decrease in National Weather 
Service.
    How do you explain and where do you prioritize? I mean, 
obviously, climate change got a large increase, climate 
research, Weather Service gets a decrease. Why?
    Dr. Lubchenco. Mr. Chairman, the ability for us to deliver 
quality weather forecasts and warnings depends on a variety of 
activities within NOAA. First and foremost are weather 
satellites. You see a significant increase in our satellite 
programs this year, and that is due directly to the importance 
that those weather satellites play. Over 90 percent of the data 
that go into our numerical weather models come from satellites.
    The decreases that you see in the Weather Service program 
are ones that we believe represent mostly administrative 
efficiencies where we can provide the same or better level of 
service at a lower price, if you will. So overall, we have put 
saving lives and property at the very, very top level of our 
budget, and I think that is reflected in the combined satellite 
and Weather Service line items.
    Chairman Harris. Just to follow up, why not take it from 
climate research instead of the Weather Service? I mean, 
Weather Service gets a hit in funding to fund satellites, but 
climate research doesn't. I mean, is that the priority of the 
Administration, that climate research--again, you have 
testified before. This is looking at decades in the future is 
more important than looking at a week into the future? I would 
say some people in the Midwest might disagree with that.
    Dr. Lubchenco. The investment in understanding how the 
climate system works influences directly our ability to provide 
outlooks, for example, with drought, severe weather such as 
heavy precipitation events, heat waves, those kinds of things. 
So there is a direct connection between our better 
understanding of how the climate system works and our ability 
to deliver information to help communities and people and 
businesses prepare, even in the months to years ahead, not just 
decades from now.
    Chairman Harris. Just a very brief, clarifying point. 
Wasn't your testimony before the Committee that climate 
research is looking years ahead? It is not months, not weeks, 
not days?
    Dr. Lubchenco. Climate research is designed to help us 
understand how the climate system works. That helps us 
understand what will happen months ahead, years ahead and 
decades ahead, all of those.
    Chairman Harris. Thank you very much, and I recognize Mr. 
Miller.
    Mr. Miller. Thank you, Mr. Chairman. Dr. Lubchenco, I also 
have a question about the polar orbiting satellites, the 
geostationary satellites, the next generation, because the 
NPOESS system was one of the most snake-bit projects the 
Federal Government has ever been involved with. This Committee 
has had many hearings on polar orbiting satellites, and GAO has 
taken a great interest. And they earlier estimated what it 
would take to complete the JPSS system at a couple billion 
dollars more than the $12.9 billion that your budget suggests 
will be sufficient. Lowballed estimates are a problem because 
it may help get programs through initially, and then it may be 
that Congress is reluctant to pull the plug on a program once 
begun, but it leads to undermining confidence by Congress and 
the Agency, it undermines confidence of the American people if 
there are cost overruns, and it would be very useful to begin 
with a pretty realistic estimate.
    Why do you believe that the program would cost less than 
GAO estimated, and will the requested funding level be enough 
to develop the instruments and to meet the scheduled launch 
dates?
    Dr. Lubchenco. Congressman, when I first took this 
position, I was told in no uncertain terms by Members of 
Congress that the NPOESS program was a national embarrassment, 
had been problematic for far too long and absolutely needed to 
be fixed. And I took that very seriously.
    Mr. Miller. As you should have.
    Dr. Lubchenco. Which is what led to the significant 
restructuring of that program. And the creation of the Joint 
Polar Satellite System is a result of that. It has benefitted 
from intense internal and external scrutiny. We had the benefit 
of many outside experts advising us on this, learning from the 
lessons of NPOESS, and committing to not repeating them.
    In constructing our budgets, we have committed to capping 
the costs of JPSS at this $12.9 billion level. That will indeed 
entail the loss of some of the sensors that we had originally 
envisioned to fly on those satellites, but we are in fact 
committed to staying with that cap. I think that the success 
that we are having now with the Suomni NPP satellite, the 
instruments that are on it, our good partnership with NASA in 
that regard, and all of the activities we have engaged in with 
the JPSS program to date suggests that, in fact, we have turned 
this around, we are on track. We will be watching it very 
closely as I am sure you will be and should be. But I think 
these satellites are too important to not be on the path to 
success, and we are committed to that end.
    Mr. Miller. Climate research. I understand that NOAA is 
involved, should be involved in all aspects of climate 
research, observations, data management, modeling and those 
various activities advance what you call the NOAA climate goal. 
There are other agencies that are also involved in climate 
research. What is the climate goal and how does that goal 
benefit the mission of the Agency and the needs of Americans 
and is that research duplicative of what is going on in other 
agencies?
    Dr. Lubchenco. Thank you, sir. Good questions. Within NOAA, 
there are activities across many different parts of NOAA, what 
we call line offices, that touch on our climate goal. And so it 
is appropriate for us to have a mechanism of integrating across 
the different units within the Agency. That is what the climate 
goal does. It pulls from the different units and has a more 
overarching integrated nature. By the same token, there is a 
mechanism to integrate research across the different federal 
agencies that are engaged in climate research through the 
program called the U.S. Global Change Research Program. That is 
the mechanism by which we ensure that there is not duplication, 
that there is coordination, collaboration across the different 
agencies. So each different agency that does have some element 
of climate research coordinates through the Global Change 
Research Program. For example, there are different types of 
modeling efforts under way that are complementary, and this is 
a mechanism of keeping each other in formed and making sure 
that we don't have duplication.
    Mr. Miller. My time has expired.
    Chairman Harris. Thank you very much. The gentleman from 
California, Mr. Rohrabacher, is recognized for five minutes.
    Mr. Rohrabacher. Thank you, Mr. Chairman. That is kind of 
an interesting distinction here that you are making with the 
climate versus weather. I am sure that there is that 
delineation that is made in academe as well as in government 
offices.
    The recent Government Accountability Office report found 
that 40 percent of the weather stations used for the U.S. 
Historical Climatology Network do no not meet NOAA's own 
sitting standards which require, for example, that weather 
monitor stations not be located too close to paid services or 
in areas that, of course, would interfere with the correct 
assessment of the temperature, et cetera. The report also found 
that NOAA does not centrally track whether or not these 
stations adhere to the actual standards, nor does it have an 
agency-wide policy regarding these stations. So I guess it is 
saying that you have 40 percent of the weather stations used 
for this U.S. Historical Climatology Network don't meet NOAA's 
own standards, is that correct?
    Dr. Lubchenco. Congressman, I don't know the actual figure. 
I can tell you that through time, many stations that were 
originally put in one place, the circumstances around them have 
changed, and that when we collate all that information, we take 
that into account and often make adjustments accordingly. We 
are in the process of sort of looking across all of those 
weather stations to make sure that they give us the best kind 
of information and we are----
    Mr. Rohrabacher. Well, it is pretty hard to adjust 
something if you don't know what the real recording is. I mean, 
it is one thing to say where you justify some average of what 
has happened in the past. That doesn't count if you think there 
is changes going on.
    Now, I understand that there is a request for $28 million 
to increase climate research. Does any of that money that the 
$28 million requested would go to perfecting these stations so 
you will know how to judge the climate by accurate weather 
assessments?
    Dr. Lubchenco. Congressman, there are multiple different 
ways that we take data about temperatures, for example, and 
those ground stations are one of them. They are complemented by 
a number of other mechanisms that overlap. So we have satellite 
information, we have ground-based information, we have tall 
towers, we have buoys.
    And so our information about changes does not rely on any 
one type of network. It relies on the sum total of those.
    The climate research program that is in our budget is 
focused on not the monitoring per se but understanding the 
mechanisms, you know, how the Earth system works, what is the 
role of aerosols, what is the carbon cycle like, what is the 
role of black carbon, for example.
    Mr. Rohrabacher. Well, if you have a lot of, I mean, 40 
percent of the stations not meeting the standard certainly 
seems to me that before you want to go into all these other 
calculations, you are going to want to fix that problem. And I 
guess what I am hearing is no, you are not going to go after 
those stations, and that money that has been requested to 
increase climate research will have to just work around those 
figures that may or may not be accurate.
    Dr. Lubchenco. Congressman, let me get back to you with 
respect to that figure and what we are doing to address that 
need because I would like to give you accurate information on 
this.
    Mr. Rohrabacher. It is the Government Accounting Office's--
--
    Dr. Lubchenco. I understand.
    Mr. Rohrabacher. Let me just note, in Orange County, where 
I come from, I grew up there as a boy and my dad was a marine, 
and we were at El Toro, and all around us were orange groves as 
far as you could see.
    Dr. Lubchenco. Right.
    Mr. Rohrabacher. And there were some weather stations 
there, and I will tell you right now, to think that those 
weather stations, it is a totally different world now where 
those weather stations are located. They are located in a bunch 
of concrete and buildings, and it is a totally different 
environment. So I think that when we are trying to find out 
what is accurate in terms of what those instruments are 
recording, we do have to take into consideration those type 
changes, and it doesn't look like we have paid enough attention 
to that. But thank you very much. I will be hopefully getting 
maybe a couple of paragraphs back from you on how we are 
handling that.
    Dr. Lubchenco. I can tell you that we are, in fact, aware 
of the changes in many of these places, and in some areas, we 
are creating new stations and having, you know, in areas that 
are not likely to change through time such as you mentioned. 
But what the number is and exactly the rate at which we are 
fixing them, I am happy to get back to you on.
    Mr. Rohrabacher. Thank you very much.
    Chairman Harris. Thank you very much. The Chair recognizes 
the gentlelady from California, Ms. Lofgren, for five minutes.
    Ms. Lofgren. Thank you very much, and I am pleased to be 
here. Some of my questions have already been asked, but I did 
share with our witness a copy of an editorial that appeared in 
the San Jose Mercury News a couple of weeks ago relating to the 
tsunami alerts and the proposed $4.6 million that affects the 
early warning system.
    I would like to note that San Jose, which is within my 
congressional district, is not on the coast, and we would not 
be impacted by a tsunami in any way. We have even done the 
modeling. Even on the bay, there is no way that a tsunami could 
impact us according to the computer modeling. So this is not 
from a parochial point of view.
    But I do have a concern. I have read the analysis that a 
degradation of this system--which I think inevitably will 
result, I mean, if we are not able to repair these buoys. Some 
will go dark and we will not be able to reach them without the 
funding. This could have a public safety impact, and obviously 
you have constraints that were placed upon you. We recognize 
that. But I am concerned as we think about this tsunami, the 
devastating tsunami that hit Japan, certainly the possibility 
of a devastating impact somewhere along the West Coast, whether 
it is, you know, Washington or L.A., needs to be considered. 
And I am wondering if this is really something that we want to 
stick with in terms of reduction. Could you address this 
subject at all?
    Dr. Lubchenco. Certainly, and thanks for the questions, 
Congresswoman. Tsunamis are very, very serious, obviously, and 
we take our responsibility to warn our citizens very, very 
seriously.
    We saw with both the Chile, and then the Japanese, tsunami 
how devastating they can be. Our tsunami warning system was 
active in both of those instances and in fact prevented 
considerable damage that might otherwise have occurred. For 
example, both places along the West Coast, Crescent City for 
example, but also in the Hawaiian Islands and other Pacific 
places, territories----
    Ms. Lofgren. Santa Cruz?
    Dr. Lubchenco. And Santa Cruz, absolutely. Santa Cruz was 
seriously affected. Our warning program before this year had 
benefit of both appropriated funds as well as funds from the 
2005 Deficit Reduction Act. And this year, that act expires. We 
will no longer have funds from the Warren Act to help 
supplement our tsunami programs, which is why you see a 
reduction in this year's program compared to last year.
    Nonetheless, we will be able to continue to have two very 
active tsunami warning centers in Alaska and in Hawaii. The 
dart buoy systems that give us very important information as 
the tsunami is moving across the Pacific will remain in place. 
The decreased funds mean that we will be unable to go out and 
fix those dart buoys when they become disabled as frequently as 
we would like to or as frequently as we have to date. So the 
system will be up there. We just are not able to maintain it at 
the pace that would be necessary.
    Ms. Lofgren. May I ask you a question, because oftentimes 
we think about, you know, the West Coast of the United States 
as being the recipient of a tsunami from the earthquake in 
Asia. But certainly there is the potential of a very large 
earthquake, certainly along the State of Washington given 
historic events. And so actually, the Hawaiian Islands could be 
at risk as well as the coast along the United States.
    Have we thought about the impact of letting these buoys go 
dark from that kind of an event?
    Dr. Lubchenco. Absolutely. The dart buoy system was 
designed to function regardless of where in the Pacific Rim the 
earthquake was happening. And you are right to focus on 
Washington but Oregon as well as places where there in fact may 
be an event. The dart buoys do not enable those warnings to 
happen. When there is a seismic event, that information is 
received immediately by our tsunami warning centers, and they 
send out a model.
    Ms. Lofgren. If I may, I think I misspoke. I am talking 
about the buoys that aren't working and can't be repaired in a 
timely fashion.
    Dr. Lubchenco. Warnings don't depend on those buoys.
    Ms. Lofgren. Okay.
    Dr. Lubchenco. Warnings happen first, and we are still able 
to do those. And then the buoy picks up the tsunami as it is 
moving across the ocean, and that enables us to fine tune the 
warnings. So if there is a buoy that is out, we will still have 
a general warning. It won't be as specific as might be useful, 
but it is not as if we won't have any warning system at all. I 
agree it would be nice to have all those buoys up and running. 
We just don't have the money.
    Ms. Lofgren. I would ask unanimous consent to put the 
editorial in the record and just note that I understand your 
constraint, but it seems to me not maybe the best place to 
economize. And if you over-warn, then people don't take it as 
seriously. And we have seen that in California where people 
show up to look. And if it were a big event, that would not be 
a smart thing. If it is targeted, people take it more 
seriously. I know my time is up.
    Chairman Harris. Without objection.
    Ms. Lofgren. Thank you very much.
    Chairman Harris. We will include that in the record.
    [The information may be found in Appendix 2.]
    Chairman Harris. The Chair recognizes the gentleman from 
California, Mr. McNerney, for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Dr. Lubchenco, I 
want to thank you for your testimony, and also for recognizing 
the disaster that occurred last week in the Midwest. I know a 
lot of families are going to be grieving a long time about 
that. Could you elaborate on the importance of the Weather-
Ready Nation initiative? Be a little specific here. How is the 
money going to be used to help warn people of these events?
    Dr. Lubchenco. Congressman, we have invested a significant 
amount of research over the years in doing better and better at 
making more and more accurate forecasts with longer lead times, 
for example. And we have made some very significant strides in 
that direction. We will continue to do that as well as have the 
satellites give us the basic information that allow much of 
that to happen.
    However, many of our warnings often happen, and people 
don't necessarily know what to do, or they don't know how to 
interpret the information. And so the Weather-Ready Nation is 
an initiative to work with local communities, with emergency 
managers, with social scientists, with others, to help better 
understand what people hear when they hear a warning, and if 
they are hearing what we think we are trying to tell them and 
if they know what to do, to take cover, to be safe. So it is 
acknowledging the very real human dimension in responding to a 
weather disaster warning. So we will again on parallel tracks 
make sure that our satellites are on track to give us the basic 
information, have our weather forecast disaster warnings as 
accurate and as good as they can be but also pay attention to 
increasing the ability of individuals, community leaders, 
emergency managers in responding appropriately when there is 
something bad coming.
    Mr. McNerney. Thank you. As a mathematician, I strongly 
understand the importance of STEM education, and I see there is 
a reduction in funding for the Office of Education. How do you 
feel that is going to affect the training of a generation of 
scientists or potential scientists?
    Dr. Lubchenco. Congressman, that is one of the most painful 
parts of this budget for me this year. STEM education is 
vitally important, and the role that NOAA's education programs 
have played I think has been outstanding. We simply did not 
have enough funds to do everything and made saving lives and 
property and managing fisheries, other really important things, 
the highest priorities. And what that meant is that there are 
some very important things we are not able to do, and it is 
very, very painful for me.
    Mr. McNerney. I understand. Another subject that I have 
personal interest in from my past life is wind energy. I spent 
a career there, and I see you have $855,000 in the budget for 
wind boundary research, and that is going to help the industry 
maybe some day. Could you tell me a little bit about that 
program and what exactly are they planning to do with that 
money?
    Dr. Lubchenco. I can give you a high-level description of 
it, and if you want more detail, I am happy to provide that as 
well as a follow up.
    Much of the challenge is in understanding what is happening 
at the level where the turbines are and understanding better 
the boundary layer conditions and what is happening at 
different altitudes above the ground and how that changes when 
you are on a ridge top or a valley is part of the research that 
is anticipated in this area. So it is understanding better what 
are the conditions that result in different patterns of wind 
and to what extent we can predict under certain circumstances 
what the patterns will be under different circumstances.
    Mr. McNerney. So you would be looking at the shear effects?
    Dr. Lubchenco. Yes, exactly.
    Mr. McNerney. And there are a couple of ways to do that. 
One is to try and map it out by location. Another is to try to 
understand the sort of atmospheric effects that are happening 
due to climate situations. Are you focusing on one of those two 
or both?
    Dr. Lubchenco. It is a combination of those, but I can't 
tell you precisely what. You know, we know that any particular 
place is not static through time. You know, there are very 
different conditions, if it is an El Nino versus a La Nina 
year, it depends on where the jet stream is, it depends on all 
sorts of other kinds of things, and having a better 
understanding of what are the circumstances that result in a 
particular pattern of winds is where we are trying to be.
    Mr. McNerney. Okay, thank you. Mr. Chairman, I yield back.
    Chairman Harris. Thank you very much. The Chair now 
recognizes the gentleman from New York, Mr. Tonko, for five 
minutes.
    Mr. Tonko. Thank you, Mr. Chair. Dr. Lubchenco, thank you 
for joining us today and for your testimony. The proposed 
budget for the National Weather Service has several reductions 
that are of real concern. This Committee has opposed past 
attempts to eliminate the Wind Profiler Network. I understand 
the data from this network are utilized for forecasting 
tornados. We are experiencing an increase in tornado outbreaks. 
In fact we witnessed just recently what happened in Tornado 
Alley as it is often referenced, and I saw unusual weather 
elements this past last summer in my own district, in the 21st 
in New York, which included a tornado in my hometown area.
    Why is the Administration proposing to eliminate this 
network?
    Dr. Lubchenco. Congressman, it is my understanding that we 
believe that we can get similar information through other 
mechanisms and that eliminating these profilers will not impair 
our ability to forecast the tornados.
    Mr. Tonko. It may not limit the ability but are we likely 
to experience degraded forecast accuracy?
    Dr. Lubchenco. I don't believe so. Part of what we are 
doing is focusing on converting our Doppler radar systems into 
what is called dual polarization radar, and that is giving us 
very good ability to have more precise information about 
conditions conducive to tornado formation.
    Mr. Tonko. I am also concerned about the proposal to 
eliminate the information technology officers at each weather 
forecast office. My understanding is that these professionals 
serve as both meteorologists and IT specialists and that many 
forecast offices develop specialized programs tailored to local 
conditions to improve their forecasting.
    How is a central system going to do this effectively?
    Dr. Lubchenco. We believe that we have had significant 
improvements in IT technology that will enable us to reduce the 
number of these IT positions and to fulfill the activities that 
they supply more regionally as opposed to individual stations, 
and we believe we can do that without any significant 
degradation of the services provided.
    Mr. Tonko. So has this concept been tested? Are we simply 
doing the experiment and the implementation simultaneously?
    Dr. Lubchenco. It is my understanding that it is comparable 
to an analogous situation that happened earlier on with the 
Weather Service that was the result again of technology 
enabling more effective provision of service but at a lower 
cost. So we are actually learning from that experience and 
folding that into this design.
    Mr. Tonko. You know, this is a public safety issue in my 
opinion, and your own agency's press release indicated we had 
another record year for weather-based natural disasters. You 
made mention of it today in your testimony.
    Beyond the IT abilities, are there other bits of rationale 
for this cut?
    Dr. Lubchenco. We take the public safety issues extremely 
seriously. That is really the highest priority that we have for 
the Weather Service, and we believe that we can achieve 
administrative efficiencies with this proposal with no threat 
to public safety, no degradation of the services that are 
provided. Otherwise, we wouldn't be doing this.
    Mr. Tonko. And also, Dr. Lubchenco, does the request for 
fiscal year 2013 include funding for the Integrated Water 
Resources Science and Services initiative that NOAA is working 
on with the Army Corps and USGS?
    Dr. Lubchenco. Congressman, I don't have that number on the 
top of my head. I am happy to get it and get back to you on 
that. You are right, that IRIS program that is a joint one is 
very important to us. It is at a small scale. We think there 
are a lot of efficiencies in combining with the other agencies, 
as you and I have discussed, but I don't remember exactly what 
is in the budget for that. But I will get back to you on that.
    Mr. Tonko. Thank you. And as I stated, you know, my 
district has experienced a lot of impacts from Mother Nature 
this past summer and fall, including terrible flooding problems 
last year. And I believe that this program would be very 
helpful in addressing water resource issues which have got to 
be a primary focus, I believe, from a federal perspective.
    Dr. Lubchenco. I agree.
    Mr. Tonko. Thank you so much.
    Dr. Lubchenco. Thank you.
    Chairman Harris. Thank you very much. Dr. Lubchenco, I 
thank you very much for your testimony, the Members and their 
questions, I want to again thank you for your patience while we 
came back from voting. The Members of the Committee may have 
additional questions for you, and we ask you to respond to 
those in writing. The record will remain open for two weeks for 
additional comments from Members. We are looking for those 
budget justifications, so don't forget us on that. The witness 
is excused, and we will move to our second panel with Mr. Lek 
Kadeli.
    Thank you very much for your patience again. We apologize 
for the delay while we were voting. I want to welcome Mr. 
Kadeli, who is the Acting Assistant Administrator from the 
Office of Research and Development at the EPA. He has over 29 
years of management experience in both government and the 
private sector. He joined EPA's Office of Research and 
Development in 1993 to serve as Chief of Resource Planning and 
Program Coordination, and in 1998 served as the Acting Deputy 
Director of ORD's National Exposure Research Laboratory in 
North Carolina. He previously served as the Acting Assistant 
Administrator for the Office of Research and Development from 
January through December of 2009. As our witness should note, 
spoken testimony is limited to five minutes after which the 
members of the committee will have five minutes each to ask 
questions, and I now recognize you for your testimony, Mr. 
Kadeli.

                  STATEMENT OF MR. LEK KADELI,

                ACTING ASSISTANT ADMINISTRATOR,

              OFFICE OF RESEARCH AND DEVELOPMENT,

                ENVIRONMENTAL PROTECTION AGENCY

    Mr. Kadeli. Thank you, Mr. Chairman. Good afternoon 
Chairman Harris, Ranking Member Miller and other Members of the 
Subcommittee. My name is Lek Kadeli, and I am the Acting 
Assistant Administrator for EPA's Office of Research and 
Development, and it is my pleasure to be before the Committee 
to present the President's 2013 request for our budget.
    The 2013 research budget demonstrates EPA's commitment to 
providing the best science and technology for its core mission 
of protecting human health and the environment for American 
families while recognizing the challenging realities of this 
current climate. The fiscal year 2013 budget is the result of 
EPA's ongoing efforts to carefully consider potential 
efficiencies in a responsible manner while supporting 
innovative approaches that are essential to understanding and 
addressing environmental challenges and protecting human 
health.
    It has taken a lot of hard work and difficult choices to 
reach this balanced approach, and while we had to make 
sacrifices, we have maintained our commitment to the priorities 
of this Agency and ensuring the protections the American people 
expect and deserve.
    ORD conducts intramural and extramural research across the 
broad spectrum of disciplines necessary to support the mission 
of EPA. In addition to the science that we have traditionally 
pursued, we are investing in research on innovative approaches 
and technologies along with promoting synergies between 
environment and public health protection in a context that 
reflects broader community interests and needs.
    I would like to highlight a few examples of the innovative 
solutions that we are pursuing and that I believe would be of 
interest to the Committee.
    First, EPA is collaborating with the National Institutes of 
Health and the Food and Drug Administration to bring 
complementary expertise together to develop faster predictions 
of how chemicals could impact human health and the environment. 
The intergovernmental partnership called TOX 21 is using 
robotically enabled high-speed screening to test the potential 
toxicity of 10,000 different chemicals. This will help us more 
efficiently prioritize chemicals for in-depth testing, over 
time will reduce animal usage in testing and reduce the cost, 
and most importantly will provide data that will enable us to 
better predict whether a chemical exposure triggers changes 
that increase the potential for human health or environmental 
impacts.
    Secondly, we are collaborating with five large U.S. cities, 
Cincinnati, Dallas, New York, Philadelphia, and San Francisco, 
to investigate solutions to security issues at water utilities. 
These cities are evaluating software developed by the Office of 
Research and Development which is a key component of a 
contamination warning system that rapidly detects hazardous 
contaminants in drinking water systems and is a critical 
technology for the detection of terrorist attacks on drinking 
water systems.
    EPA is also in collaborative efforts with municipalities to 
improve and achieve more resilient storm water management 
approaches by sustainably addressing storm water and septic 
runoff overflows. At a time where we face critical challenges 
in maintaining and upgrading our existing water and wastewater 
infrastructure, we need resilient and affordable solutions that 
meet many objectives at once. For example, we are supporting 
research and implementation of green infrastructure approaches 
which provide diverse economic, water quality and community 
benefits.
    EPA's 2013 budget request proposes $807 million for the 
science and technology account. This request includes $576 
million for research, including $81 million in research grants 
and fellowships that will be awarded to scientists and 
universities throughout the country to conduct targeted 
research as part of the Science to Achieve Results program. 
Building upon ongoing research and collaborating with the 
Department of Energy and the U.S. Geological Survey, a total of 
$14 million is being requested to increase our understanding of 
the potential impacts of hydraulic fracturing on air quality, 
water quality, and ecosystems. Six million dollars of the $14 
million requested is necessary to complete the commitment to 
deliver on the fiscal year 2014 report on the potential impacts 
of hydraulic fracturing on drinking water resources. The report 
will be peer reviewed by the experts and a range of 
stakeholders.
    In conclusion, we have a strong tradition of scientific 
excellence at EPA which this budget builds upon. I look forward 
to working with the Committee to address current and emerging 
environmental problems and seek innovative solutions that will 
help our Agency protect the environment and human health. Thank 
you for the opportunity to appear before the Committee.
    [The prepared statement of Mr. Kadeli follows:]

                   Prepared Statement of Lek Kadeli,
                    Acting Assistant Administrator,
                  Office of Research and Development,
                    Environmental Protection Agency

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T3125.019

[GRAPHIC] [TIFF OMITTED] T3125.020

[GRAPHIC] [TIFF OMITTED] T3125.021

[GRAPHIC] [TIFF OMITTED] T3125.022

    Chairman Harris. Thank you very much. I thank you for your 
testimony, reminding Members of the Committee rules, limit 
questioning to five minutes. The Chair will at this point open 
the round of questions. I recognize myself for the first five 
minutes.
    Mr. Kadeli, two weeks ago the President gave a speech on 
gas prices, certainly foremost on a lot of Americans' minds in 
which he stated, ``I have directed my Administration to look 
for every single area where we can make an impact and help 
consumers in the months ahead.''
    My first question to you is do you, as one of the leaders 
in an area of the Administration, do you know when you are 
expected to report back to the President? Was there a report 
date that the President suggested or is passed down through the 
Administration? I mean, he said he wants to look in every 
single area in the months ahead. Is there a report date for 
this where you can help lower gas prices or make suggestions?
    Mr. Kadeli. Congressman, Mr. Chairman, I am going to have 
to respond for the record on that. I don't have the information 
on that.
    Chairman Harris. Okay. Thank you very much. In that mind, 
do you know if the EPA has considered abandoning the Tier 3 
rule-making or greenhouse gas regulations for refining, both of 
which are entirely optional policies that are guaranteed to 
raise gasoline prices even higher than they are? I mean, is 
there any move afoot at the EPA to actually do what the 
President said in the speech?
    Mr. Kadeli. Again, I think I will need to provide that 
response for the record. I will go back to my colleague, the AA 
for the Office of Air and Radiation, and get a response.
    Chairman Harris. Thank you. I would appreciate that and 
would love to know what that deadline is. Now, last week 
Administrator Jackson claimed that the $45 million multi-agency 
study, which I think you alluded to in your testimony of air, 
ecosystem and water quality effects of hydraulic fracturing 
``really isn't an expansion of the congressionally mandated 
study.'' I mean, that is what your administrator said, it 
really isn't an expansion. But the language in the fiscal year 
2010 appropriations report was pretty clear. It urged the 
Agency to carry out a study of the relationship between 
hydraulic fracturing and drinking water. So what is the origin 
of the $45 million effort which, by your own testimony, 
includes things like air quality? That wasn't part of--and I 
won't use the word mandate because of course, you know, the 
budget language of 2010 was no mandate. Instead of asking for 
that two percent increase and I will just, you know, make a 
comment, you know, you used the word make sacrifices. Most 
American families think making sacrifices means you do more 
with less, not more with more. A budget increase is a budget 
increase. American families don't think of sacrifices as the 
government coming back and saying give us more money. That is 
our sacrifice.
    So the Agency doesn't have to do this study. There is no 
mandate. It not only took the original study. Now it has 
expanded the study and coming back for even more money. So can 
you walk us through the origin of why this is now a $45 million 
effort that has expanded well beyond what even the non-
mandatory language of the fiscal year 2010 has called for?
    Mr. Kadeli. Mr. Chairman, I think we all recognize the 
importance of this resource for this country, whether from a 
national security standpoint, whether from an environmental 
standpoint, whether from an economic standpoint. I myself have 
traveled to parts of this country, whether Eastern Ohio, 
Western Pennsylvania, New York, and other parts of the country 
that have been hit very hard with regard to the economic 
challenges.
    So clearly this offers a lot of opportunity for people in 
these parts of the country but also offers opportunity for us 
to address a real need on the energy side of the equation.
    When we started down the path of looking at what are some 
of the questions and uncertainties around hydro fracturing, it 
was done with the encouragement of Congress, and I recognize 
report language is perceived in various ways, depending on 
where you sit. But clearly there are a lot of questions and 
have been a lot of questions, and as part of our commitment 
to--and the President himself has said, members of the industry 
have said, Members of Congress and others have said that it is 
important to do this right, and I think there are a lot of 
questions out there that it would be good to bring a lesser 
degree of uncertainty to addressing those questions.
    So that is our intent with the study. That is our intent as 
we look at a number of questions around, not just the drinking 
water issues but the water quality issues and potentially air 
issues. I would also add that there have been concerns raised, 
and I think at the end of the day, we have a responsibility to 
the public, to the American people, to address those concerns 
with the facts as opposed to what sometimes is a lot of energy 
and passion and emotion around some of these issues.
    Chairman Harris. You know, I couldn't agree more. Again, I 
take it that you have agreed I guess with my two main points. 
One is it is not originally a mandated study because perception 
aside, we know the budget language is not law. We know it is 
not binding. We know it doesn't require an appropriation, much 
less an expenditure and second of all that this really is an 
expansion and that the expansion is taken not at Congress' 
determination but internally in the EPA. Someone at the EPA 
just decided that we are just going to expand the scope of 
this, and we are just going to increase our budget. We are 
going to make the sacrifices again, the American people 
watching, the American people hearing. This is what Washington 
thinks of as a sacrifice, not what you think of as a sacrifice 
in your home. They think of a sacrifice as increasing in your 
budget, and that is not what most Americans think.
    Anyway, I would recognize the Ranking Member, Mr. Miller, 
for five minutes.
    Mr. Miller. Thank you, Mr. Kadeli. This Committee has been 
interested, and I have been interested personally, in the IRIS 
program for some time. It is perhaps not the embarrassment the 
NPOESS satellite system, but it has not been one of our 
government's more successful programs and it appears in part to 
be because of an intentional effort to keep it from doing its 
job, to hobble it in its mission. We obviously need a list, a 
reliable assessment, of the public health effects of exposure 
to various chemicals and the IRIS system was producing two 
assessments a year when 600 new chemicals are coming on the 
market every year? And I have been skeptical about some of the 
calls for more analysis, more reviews as an intentional effort 
to impose paralysis by analysis, and the program has been 
entirely too easily influenced in the past. I know that this 
Administration is trying to improve upon that by the industries 
that manufacture chemicals and by the industries that use 
chemicals and by the agencies of the government that use 
chemicals.
    But GAO and the National Academies have also criticized the 
IRIS program for not having rigorous peer reviews. Many have 
suggested reforms. Your budget proposal does shift resources to 
the EPA Science Advisory Board for additional IRIS assessment 
reviews. How will that money be used? How will you use that 
money? Will there be rigorous peer reviews as GAO and National 
Academies have suggested?
    Mr. Kadeli. Congressman, as a science organization, one of 
the important ways that we ensure the work we do is of the 
highest quality and meets the standards that is expected by the 
President and by the administrator is we invite independent 
peer review of the work that we are doing. And this is not just 
unique to our agency but is typical of the scientific culture. 
It is not only how we get our work done but how we ensure that 
the American public are getting the best possible work done.
    I must say there are times where we have enjoyed the 
feedback that we have gotten from these independent scientists, 
and some of the feedback has been challenging. The National 
Academy, in their review of our formaldehyde assessment, had a 
number of observations that related to that particular 
assessment, but we have recognized that the importance of 
taking that feedback and enhancing the assessments that we do 
as a result.
    I will say the focus of their comments with regard to that 
particular assessment, particularly as we try to address them 
in the short term, had to do with the transparency of the data 
as far as how we captured them in charts, how we captured them 
in graphs as opposed to being lost in the text, bringing 
clarity to the important studies that were driving some of the 
conclusions that were made.
    So let me end by saying peer review is important. I 
actually think that what we do with peer review is of the 
highest standards, but I also continue to welcome the type of 
feedback that we get, which is a normal part of our process, to 
ensure that we are providing quality products.
    Mr. Miller. Earlier in your prepared testimony you spoke of 
the TOX21 system that you are working with NIH and FDA on to 
develop a high-speed toxicity testing screening project for 
10,000 different chemicals. Can that TOX21 high-speed testing 
capability help the assessment of chemicals? I am worried about 
the lack of productivity by the IRIS program with completing so 
few assessments. I mean, it would be great to produce a perfect 
assessment, but if there are 600 chemicals coming on the market 
and getting into widespread use and people are being exposed to 
those chemicals and we are only producing two assessments a 
year, even if they are perfect assessments, there is a problem 
there.
    Can the TOX21 system be used within the IRIS program and 
are some of the chemicals being assessed both by IRIS and by 
TOX21?
    Mr. Kadeli. This is one of the exciting areas of work going 
on in ORD and as we collaborate with other federal agencies, 
Congressman. Obviously, we have a challenge. If we are doing 
assessments on a chemical-by-chemical basis, which we are 
doing, the National Academies did a study a few years ago that 
was titled Toxicology for the 21st Century where it pointed to 
a number of advancements that have come about in a number of 
other industries including the pharmaceutical industries, that 
provide opportunities for us to apply the lessons learned, the 
technologies, the incredible increases in computational powers 
to some of these questions. We have made significant strides, 
and I would offer a briefing to the committee because of the 
opportunities that this offers in addressing some of the 
challenges that we have had historically with the IRIS program 
and the incredible number of chemicals that the industry 
continues to develop as part of commerce.
    Chairman Harris. Thank you very much. I recognize the 
gentleman from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. I think 
it behooves all of us when we discuss the EPA and other 
endeavors of government that combine both government and 
science that President Eisenhower warned us, very dramatically 
warned us, of a military-industrial complex which most of us 
have forgotten the first warning that he gave us right before 
he warned us of the military-industrial complex. With equal 
seriousness, President Eisenhower warned us against an unholy 
alliance between science and government in which science would 
be mobilized to achieve political ends and thus actually 
compromise the standards of scientists and compromise the well-
being of the American people. We might go back and look at that 
good farewell address.
    And I think that nowhere is that more apparent than perhaps 
in some of the things that we have been worrying about with the 
EPA lately and this whole hydro fracturing issue is very much 
of a concern because we realize that the initiative the EPA is 
now operating on was not something that actually came 
internally from the EPA but, correct me if I am wrong, instead 
Congress--I think it was a time when another party may have 
dominated the House--tasked the EPA to move forward on this, 
and perhaps this is the unholy relationship that Eisenhower was 
warning us against because what we have now is clearly an 
initiative that you are moving forward with that seems to be 
totally politicized. And when someone comes before us and 
basically, when we have analyzed what you and others from the 
EPA have come here to tell us, Mr. Chairman, it always seems 
that they are basically saying we are looking for something 
that we can grab onto with hydraulic fracturing. We are looking 
for that. We are seeking it out. And just the answer to the 
Chairman's questions again verified that for me that what we 
have here is there is no specific evidence that has led to the 
type of expenditure of limited tax dollars for this project, 
but instead, the EPA is going out because it has been tasked, I 
think politically, to achieve this rather than scientifically. 
And your answer to the Chairman's question did not undo that 
fear that I had of what was really going on here.
    To put it bluntly, I think for political purposes, the EPA 
is targeting and has been directed to target hydraulic 
fracturing to put a stop to it because there is a radical 
element in the environmental community that does not want us to 
have any more gas or oil energy in this country because they 
believe that oil and gas creates a carbon footprint which is 
changing the climate. And so they are going to save the world 
by preventing America from having any more oil and gas, and the 
EPA is going to be the vehicle in which they are going to 
prevent that scenario.
    So I just wanted to make sure that was on the record. Now, 
I would like to ask you specifically this question. Your 
Scientific Integrity Policy applies to all grantees, the EPA's 
Scientific Integrity Policy. Peter Glick of the Pacific 
Institute in California recently admitted that he had falsely 
impersonated a border member of the Heartland Institute in 
order to steal budget documents from that institute. Now, I 
understand that while this individual served as President of 
the Pacific Institute, that organization received nearly 
$500,000 in grants from the EPA. How does the new Scientific 
Integrity Policy address the circumstances associated with Dr. 
Glick? Does any policy limit any future grants to Glick or to 
any institute that he is involved in providing leadership?
    Mr. Kadeli. Congressman, I am not as familiar with the 
circumstances of the grants, the type of grants, et cetera. I 
think this is one where I will need to provide your response 
for the record so I have all the facts correct.
    Mr. Rohrabacher. Well, just for the record, Mr. Chairman, I 
would hope that this breach of professionalism of Peter Glick 
and the Pacific Institute is not just swept under the rug like 
so many of these other violations that we have seen. And quite 
frankly, and I am sorry this is a political thing, my 
observation is any time a Republican does anything like this, 
you know, all of a sudden there is an uproar. But you can have 
all kinds of emails between people talking about hiding the 
real facts and trying to prevent other people from actually 
publishing their findings scientifically which of course 
violates every scientific principle, and they just get away 
with it. But I think it is time for us to quit ignoring these 
violations by radical environmentalists.
    Mr. Kadeli. Congressman, if you have the specific details, 
that would be helpful as I go back, sir.
    Mr. Rohrabacher. Thanks so much.
    Chairman Harris. Thank you very much. The Chair recognizes 
the gentleman from California, Mr. McNerney, for five minutes.
    Mr. McNerney. Thank you, Mr. Chairman. Thank you for your 
testimony there for my colleague from California.
    Mr. Chairman, I would like to bring your attention to the 
fact that whether the majority party likes it or not, there is 
a growing public apprehension and alarm with potential negative 
impacts of hydraulic fracturing. I hear about it all the time. 
But regardless of whether the alarm is justified or not, the 
best way to proceed in this situation is to improve 
transparency, which is what my opinion about this budget is 
trying to achieve. Let the scientists do their job, and we will 
most likely benefit both in terms of helping to reduce the 
public fear and developing additional technologies that will 
improve the hydraulic fracturing itself, which everybody wants 
to see move forward.
    But onto the witness, Mr. Kadeli, I see that there is an 
estuarine ecosystems comp under the budget. Are you familiar 
with that?
    Mr. Kadeli. Our communities program has a significant 
ecosystems research component, and a portion of that addresses 
various types of waterways, yes.
    Mr. McNerney. This is important to me because I have the 
deltas in my district. Is there any amount that is dedicated to 
that particular ecosystem?
    Mr. Kadeli. Sir, I probably would want to get back to you 
for the record, just so I get that information correctly. I am 
not aware of that, but I can't say for certain. So let me 
respond to your question for the record.
    Mr. McNerney. Okay. I would like to know that because a lot 
rides on what understanding there is of water shipments from 
that particular estuary. So I would appreciate your detailed 
response on that.
    Mr. Kadeli. Yes, sir.
    Mr. McNerney. You clearly outlined your efforts to improve 
efficiency in this country, which--efficiency is the low-
hanging fruit in terms of energy usage. For every dollar that 
we spend in increasing efficiency, we get a much better rate of 
return. Could you elaborate a little bit on what the Department 
is going to be doing in that regard?
    Mr. Kadeli. Well, the efficiency that I was speaking to 
with regard to our request had to do with how we do some of our 
work. So for example, I shared what we were doing with the 
program called TOX21, allowing us to take advantage of 
computational power of robotics that has significantly enhanced 
the through-put of a number of chemicals that we can run 
through these many tests and has significantly reduced the 
costs associated with them.
    This is one of those programs, sir, that as you look for 
places--and I must say, when I visit where we have laboratories 
and I talk to people, I sometimes introduce myself as being 
from Washington and being there to help. I suspect you all can 
understand that sometimes that always doesn't get a welcomed 
response. But it allows me to talk about the many good things 
that are going on that their tax dollars are paying for. And 
this TOX21 program is one of those places where as a result of 
our--with other federal agencies and industry, there were some 
significant enhancements that are being made that are going to 
benefit our ability to understand potential impacts and effects 
of chemicals.
    So significant reductions in costs, significant gains in 
numbers of chemicals that we can run through a large suite of 
tests quickly.
    Mr. McNerney. Have you been successful so far?
    Mr. Kadeli. Actually, very successful, and there have been 
a number of journal articles that have been in the peer review 
press, and there is more to come, sir.
    Mr. McNerney. Thank you. I will yield back.
    Chairman Harris. Thank you very much. The Chair now 
recognizes the gentleman from New Mexico, Mr. Lujan, for five 
minutes.
    Mr. Lujan. Mr. Chairman, thank you very much. Mr. Kadeli, 
thank you for being here. Last I remembered, basic biology, 
chemistry and science said that my body depends on oxygen to 
survive as well as being able to get that even through the 
composition of H<INF>2</INF>O. It is nicer when there are no 
other chemicals or elements that are associated with 
H<INF>2</INF>O when you start talking about being able to--the 
body, and I think this notion of when it became cool not to 
have clean air or clean water, I just don't understand where 
that came from or quite honestly why we fight about that here. 
Those are basic staples that we should be looking at 
protecting, and at the same time, we could still have a strong 
economy. So I very much appreciate the R&D aspects of what your 
responsibilities entail with making sure that we still have 
access to that important quality when I talk about 
H<INF>2</INF>O.
    With that being said, Mr. Kadeli, you mentioned in your 
written testimony that the Office of Research and Development 
has organized a trans-disciplinary program around safe and 
sustainable water research. As you know, ensuring the 
availability of water in the Southwest is challenging, 
especially in states like New Mexico that experience drought. 
Water resources become scarce and we have impending problems 
inherently related to that. In my district, tribal communities 
continue to struggle for access to clean drinking water, and 
rural communities face challenges in developing waste water 
treatment infrastructure.
    Can you elaborate a bit on drinking water technologies that 
you are establishing at ORD and how they might provide safe 
drinking water to our most rural communities?
    Mr. Kadeli. Yes, sir. One of the areas of cooperation that 
is springing out of discussions that we have had with the 
academic community, with the business community and with state 
and local government officials and also the federal sector, 
there is a cluster of activity that is happening around our 
laboratory in Cincinnati, and it involves Cincinnati, Kentucky, 
Northern Kentucky and Southern Indiana.
    Some of the work that they are doing, for example, is 
looking at some of the drinking water technologies that can be 
used for small water systems, and the particular aspect that 
they are trying to address is energy consumption. Our drinking 
water and in cleaning drinking water, there is a significant 
investment of energy that is necessary to do that process. So 
they are looking at the application of various approaches in 
technology that can be applied with significant reductions in 
technology in energy use, with a particular focus on 
applications toward small systems. Clearly, large cities and 
jurisdictions have a larger tax base to pay for these 
enhancements, and one of the areas that we clearly have heard 
from a number of places is the importance of providing 
innovative approaches to help address the needs of smaller 
communities, of rural communities, et cetera.
    Mr. Lujan. I appreciate that, Mr. Kadeli. There was a 
project in my district where they asked students where water 
came from, and most of the students drew pictures of water 
faucets and hoses and where that water would come out with the 
wells and whatnot. There was a group of Navajo students that 
drew pictures of pick-up trucks with water tanks in the back, 
pictures of their grandparents or their parents carrying water 
in buckets to their homes. And with the deteriorating system 
that we have around the country, it is important that we have 
places like that right here in America, right here in our 
backyard, that we need to make sure that we can never forget 
about.
    Related to that, as we talk about areas where there maybe 
is some infrastructure as well, with the drought that we are 
experiencing in parts of the country, crumbling infrastructure, 
I am worried that the intersection of these two problems is a 
pending catastrophe. What kind of research does EPA conduct to 
deal with critical issues if we talk about crumbling 
infrastructure as well as drought?
    Mr. Kadeli. This is an area where we have seen some 
significant strides made in leveraging the ecosystems to do one 
of the jobs that they were created to do. I can remember 
visiting a Member of Congress in their district, and they 
proceeded to take about 10 minutes to educate me on the 
challenges of cities, particularly in dealing with wet water 
flows and combined sewer overflows and the need to make 
significant great infrastructure investments.
    So after about 10 minutes of greatly impassioned comments 
directed toward me as a representative of the Federal 
Government at the time, it actually provided me a great 
opportunity to talk about some of the green infrastructure work 
that we were doing that provides lower cost approaches to 
achieve some of the same effects. And there are also additional 
ecosystems benefits that occur as a result of taking these 
types of approaches. But this is one of those places where 
science and research is playing a significant role so that 
decision-makers have the information necessary to make 
decisions on the types of approaches and the more economic and 
beneficial approaches. That can be taken, complementing the 
gray infrastructure types of investments that need to be made, 
too.
    Chairman Harris. Thank you very much, and I just have a 
couple very brief questions, and then I will yield an equal 
amount of time to the Ranking Member's designee.
    Mr. Kadeli, Dr. Anastas, when he testified here, said that 
when you are going forward with the hydro fracturing study that 
in fact interested parties would be allowed to accompany the 
testing of the sites and to actually take samples, shadow 
sampling. But my understanding is since then the EPA may have 
reversed that position. You know, obviously, reproducibility 
and transparency is very important. Do you have an objection to 
that being done while you are undertaking that study?
    Mr. Kadeli. Congressman, to the best of my knowledge, 
nothing has changed as far as our collaboration with the 
companies who are a part of this study. So I am not aware of 
any changes, but I will go back and ask that question and 
provide a further response for the record.
    Chairman Harris. Thank you very much. And as kind of a 
comment, maybe a question to you, you had suggested that while 
there are concerns about hydro fracturing and gee, what could 
the Agency do except study it, why couldn't you have gone out 
and said, you know, there are 1.2 million applications of hydro 
fracturing. The only thing it seemed to have done is to have 
the price of natural gas--while of course the price of gas has 
doubled under this Administration, the price of natural gas now 
1/2 of what it is, and it seems to be safe. Wouldn't that be 
reason to say, you know, to reassure the American public, 
actually it has been done 1.2 million times, and it seems like 
it is pretty safe, instead of kind of setting up what could be 
characterized as fear mongering to some extent? Wouldn't that 
have been a reasonable alternative for a scientific agency in 
retrospect to say, you know, 1.2 million, kind of safe?
    Mr. Kadeli. Well, sir, we are careful to make definitive 
statements until we have the information that allows us to make 
those statements. Again, I will say what I said earlier which 
is the President, those in industry, those here in Congress, I 
think there is a place of agreement. This is an important 
resource. We just want to make sure that it is done right, and 
at the end of the day, I think that is in everybody's 
interests, sir.
    Chairman Harris. And 1.2 million, it seems like it is being 
done right.
    Anyway, I yield two minutes to the Ranking Member.
    Mr. Miller. Thank you, Mr. Chairman. There has been a 
suggestion for almost a decade now that EPA's research could be 
more integrated, more coordinated within the EPA if there was a 
top science official. The National Academy said that the lack 
of a top science official is a formula for weak scientific 
performance of the agency, and they and others have suggested 
that Congress create a new position of Deputy Administrator for 
Science and Technology with the responsibility of coordinating 
and overseeing agency-wide scientific policy, peer review, 
quality assurance. Probably the last thing we need is another 
position not to be confirmed by the Senate. But does ORD have 
an opinion on that? Would the head of ORD become an obsolete 
position if Congress created a deputy at the administrator 
level, assuming that somebody could actually fill that position 
as a temporary or as a recess appointment?
    Mr. Kadeli. Well, sir, I think this is something that has 
come up. It seems to be a cyclical issue that is raised. It has 
merit. I believe that the best I can do on a response is offer 
you something for the record, sir, and that is definitely in 
more the political realm. So let me some back to you with 
response for the record, sir.
    Mr. Miller. I will yield back 31 seconds.
    Chairman Harris. Thank you very much. I want to thank Mr. 
Kadeli for his valuable testimony and Members for their 
questions. The Members of the Committee, of course, may have 
additional questions for you, and we will ask you to respond to 
those in writing. I will just say that answers from the agency 
are obviously important to the work, but we still haven't 
received our QFRs back from the hearing the Subcommittee held 
on November 17 of last year. So I am going to ask you to kind 
of commit to us that within the next two weeks you can get 
those back.
    The record will remain open for two weeks for additional 
comments from Members. The witness is excused, thank you all 
for coming and the hearing is now adjourned.
    [Whereupon, at 3:58 p.m., the Subcommittee was adjourned.]

                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Jane Lubchenco, Admistrator,
National Oceanic and Atmospheric Administration

Questions Submitted by Subcommittee Chairman Andy Harris,

Subcommittee on Energy and Environment, and Other Committee Members

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Responses by Mr. Lek Kadeli, Acting Assistant Administrator,
Office of Research and Development, Environmental Protection Agency

Questions Submitted by Subcommittee Chairman Andy Harris,

Subcommittee on Energy and Environment, and Other Committee Members

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

[GRAPHIC] [TIFF OMITTED] T3125.026

[GRAPHIC] [TIFF OMITTED] T3125.027

[GRAPHIC] [TIFF OMITTED] T3125.028

[GRAPHIC] [TIFF OMITTED] T3125.029

[GRAPHIC] [TIFF OMITTED] T3125.030

[GRAPHIC] [TIFF OMITTED] T3125.031

[GRAPHIC] [TIFF OMITTED] T3125.032

[GRAPHIC] [TIFF OMITTED] T3125.033

[GRAPHIC] [TIFF OMITTED] T3125.034

[GRAPHIC] [TIFF OMITTED] T3125.035

[GRAPHIC] [TIFF OMITTED] T3125.036

[GRAPHIC] [TIFF OMITTED] T3125.037

[GRAPHIC] [TIFF OMITTED] T3125.038

[GRAPHIC] [TIFF OMITTED] T3125.039

[GRAPHIC] [TIFF OMITTED] T3125.040

[GRAPHIC] [TIFF OMITTED] T3125.041

[GRAPHIC] [TIFF OMITTED] T3125.042

[GRAPHIC] [TIFF OMITTED] T3125.043

[GRAPHIC] [TIFF OMITTED] T3125.044

[GRAPHIC] [TIFF OMITTED] T3125.045

[GRAPHIC] [TIFF OMITTED] T3125.046

[GRAPHIC] [TIFF OMITTED] T3125.047

[GRAPHIC] [TIFF OMITTED] T3125.048

[GRAPHIC] [TIFF OMITTED] T3125.049

[GRAPHIC] [TIFF OMITTED] T3125.050

[GRAPHIC] [TIFF OMITTED] T3125.051

                               Appendix 2

                              ----------                              


                   Additional Material for the Record


        Mercury News Editorial: ``Don't Reduce Tsunami Alerts''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
